Case: 20-3388

Document: 11-2

Filed: 06/11/2020

Page: 1

(2 Of .4)

No. 20-3388
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
id

Wi
RONALD R. MYLES, JR.,

)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.

UNITED' STATES OF AMERICA,
Respondent-Appellee.

FILED
Jun 11,2020
DEBORAH S. HUNT, Clerk
^___ .

ORDER

d,

Wb

Before: SURHEINRICH, Circuit Judge.

Ronald R. Myles, Jr., a pro se federal prisoner, appeals a district court’s judgment denying
r

his 28 U.S.C. § 2255 motion to vacate, set aside, or correct his sentence. Myles has filed an
application for a certificate of appealability (“COA”). See Fed. R. App. P. 22(b). He also moves
to proceed in forma pauperis (“IFP”) on appeal. See Fed. R. App. P. 24(a)(5).
After Myles robbed an Ohio bank, a warrant for his arrest was issued on June 6, 2016.
When he robbed a second bank, police apprehended him at a hotel, obtained a search warrant on
June 17, 2016, for his hotel room and car, and seized over $137,000 in cash and a Mercedes. A
county grand jury then indicted him on charges of aggravated robbery.
At a preliminary hearing in state court, Myles asked whether the June 6th warrant was the
latest warrant and argued that it permitted only his arrest and not the seizure of his property. He
then requested that the state charges be dismissed for lack of jurisdiction.

The state judge

res ponded that the June 6th warrant “was the latest one that was filed” and directed Myles to submit
a written motion to dismiss. Myles did so, but the judge never ruled on the motion because the
State dismissed the case due to the initiation of the federal prosecution against Myles for armed
bank robbery.

Case: 20-3388

Document: 11-2

Filed: 06/11/2020

Page: 2

No. 20-3388
-2-

Pi
V

After opting to proceed pro se in federal court, Myles moved to suppress the evidence
seized at the hotel.

Among other things, he argued that the state judge’s comment at the

preliminary hearing indicated that the June 17th warrant had not yet been issued at the time of the
search. The district court denied his motion, finding in part that the June 17th warrant had been
issued on that date but filed later and that the warrant was supported by probable cause.
At trial, a jury convicted Myles of two counts of armed bank robbery. See 18 U.S.C.
§ 2113(a), (d). The district court imposed a sentence of 222 months in prison, three years of
supervised release, and $145,468 in restitution.
On appeal, Myles argued that the district court should have granted his motion to suppress
pursuant to the Rooker-Feldman1 and res judicata doctrines based on the state judge’s comment
that the June 6th warrant “was the latest one that was filed.” This,court affirmed the district court’s
judgment, reasoning that the Rooker-Feldman and res judicata doctrines did not apply because the
state court did not address Myles’s argument on the merits and did not issue a decision. United
States v. Myles, No. 17-3817 (6th Cir. Feb. 21, 2019) (order), cert, denied, 139 S. Ct. 2679 (2019).
(applying United States ex rel. Sheldon v. Kettering Health Network, 816 F.3d 399, 415 (6th Cir.
2016); Berry v. Schmitt, 688 F.3d 290, 299 (6th Cir. 2012)). Furthermore, the United States
government was not a party to the state action. Exxon Mobil Corp. v. Saudi Basic Indus. Corp.,
544 U.S. 280, 284 (2005); see also Kettering Health-Network, 816 F.3d at 415.
Undeterred, Myles filed a § 2255 motion, asserting that the federal government’s use of
evidence obtained from the search on June 17, 2016, violated the Rooker-Feldman doctrine, the
doctrine of res judicata, and the Full Faith and Credit Act, 28 U.S.C. § 1738. The district court
sua sponte denied the § 2255 motion because Myles was attempting to relitigate an issue raised
and rejected on direct appeal. Myles moved to alter or amend the judgment, arguing that he had
- notpreviously raised an argument pursuant to § 1738. See Fed. R. Civ. P. 59(e). The district court

See D.C. Court ofAppeals v. Feldman, 460 U.S. 462 (1983); Rooker v. Fid. Tr. Co., 263
U.S. 413 (1923).

(3 Of 4)

Case: 20-3388
7
t

Document: 11-2

Filed: 06/11/2020

Page: 3

\

No. 20-3388
-3 -

in}

denied the motion, again noting that the state court had never ruled on whether the June 6th arrest
warrant was the sole warrant.
In his COA application, Myles reasserts his arguments that the federal government’s use
of evidence obtained from the search on June 17,2016, violated the Rooker-Feldman doctrine, the
doctrine of res judicata, and § 1738.
An individual seeking a COA is required to make a substantial showing of the denial of a
federal constitutional right. See 28 U.S.C. § 2253(c)(2). “A petitioner satisfies this standard by
demonstrating that jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). When the
appeal concerns a district court’s procedural ruling, a COA should issue if the petitioner
demonstrates “that jurists of reason would find it debatable whether the petition states a valid claim
of the denial of a constitutional right and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Jurists of reason would agree that Myles cannot relitigate his claims based on the RookerFeldman and res judicata doctrines because no exceptional circumstances exist. See Jones v.
United States, 178 F.3d 790, 796 (6th Cir. 1999). His claim based on $ 1738 does not deserve
encouragement to proceed further because he failed to raise it on direct appeal and has not
.demonstrated cause to excuse his default or actual innocence. See Massaro v. United States, 538
U.S. 500, 504 (2003); Bousleyv. United States, 523 U.S. 614, 622 (1998).
Accordingly, the court DENIES Myles’s COA application. His IFP motion is DENIED

as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(4 of 4)

C; a
^yw
(

/
/

i

No. 20-3388
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
RONALD R. MYLES, JR.,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Oct 20, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SUTTON, COOK, and WHITE, Circuit Judges.
Ronald R. Myles, Jr., a pro se federal prisoner, petitions this court to rehear its order of
June 11,2020, denying his application for a certificate of appealability (“COA”). See Fed. R. App.
P. 22(b).
This court denied Myles’ s COA application because he did not make a substantial showing
of the denial of a federal constitutional right. See 28 U.S.C. § 2253(c)(2).
After careful consideration, we conclude that the court did not overlook or misapprehend
any point of law or fact when it denied Myles’s COA application. See Fed. R. App. P. 40(a)(2).
Accordingly, we DENY Myles’s petition for rehearing.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

1

Case:

3:16-cr-00251-JZ Doc #: 137 Filed: 12/27/19 1 of 1. PageiD#:1965

<z/ylwv
$

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
WESTERN DIVISION

CaseNo. 3:16 CR251
3:19 CV 2889

United States of America,
Plaintiff,

ORDER DENYING
' SECTION 2255 MOTION

-vs-

JUDGE JACK ZOUHARY

Ronald R. Myles,
Defendant.

Defendant was sentenced in July 2017 (Doc. 104). On appeal, the Sixth Circuit affirmed
this Court’s denial of Defendant’s motion to suppress evidence and return property (Doc. 132) . He
now moves to vacate

his sentence under 28 U.S.C. § 2255 (Doc. 136). In doing so,^Defendant

advances the same arguments rejected by the Sixth Circuit on his direct appeal — that the use of
obtained by state-level authorities in_his federal^ case vidated j^j^N^^
Rooker-Feldman (id. at 4-13).

■A § 2255 motion may not be used to felitigate an issue\that was

raised on appeal absent highly exceptional circumstances. ” United States v. Brown, 62 F.3d 1418,
at *1 (6th Cir. 1995). This is not one of those circumstances . See Giraldo v. United States, 54 F.3d
776, at *2 (6th Cir. 1995), cert, denied, 516 U.S. 892 (1995).
Defendant’s Motion /Doc. 136) is denied. This Court certifies there is no basis upon which
an appeal from this Order
to issue a certificate of appealability. See 28 U.S.C. § 2253(c). Further
could not be taken in good faith. See 28 U.S.C. § 1915(a)(3).
IT IS SO ORDERED.
I hereby certify that this instrument is a tfue and
correct copy of the original on file in my office.
Attest: Sandy Opacich, Clerk
U.S. District.pourt
Northern DiBtrictef.Qhio
By:

a

DepufyCl^r^

s/ Jack Zouharv

t a pir

7011HARY

U. S. DISTRICT JUDGE
December 27, 2019

